U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 1,2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Arthrex, Inc. v. Smith & Nephew, Inc., et al.
S.Ct. No. 19-1204

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 6,
2020, and placed on the docket on April 9, 2020. The government's response is due on May 11,
2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 10, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19- 1204
ARTHREX, INC.
SMITH & NEPHEW, INC., ET AL.

JEFFREY ALAN LAMKEN
MOLO LAMKEN LLP
THE WATERGATE
600 NEW HAMSPHIRE AVENUE, N.W.
WASHINGTON, DC 20037
202-556-2000
JLAMKEN@MOLOLAMKEN.COM
202-556-200 1(Fax)

